May 2009
Report No. AUD-09-010


Material Loss Review of Alpha Bank
and Trust, Alpharetta, Georgia




            AUDIT REPORT
                                             Report No. AUD-09-010                                                                                 May 2009

                                             Material Loss Review of Alpha Bank and Trust,
                                             Alpharetta, Georgia
 Federal Deposit Insurance Corporation
                                             Audit Results
Why We Did The Audit                         Alpha failed primarily due to management’s aggressive pursuit of asset growth concentrated in high-risk ADC
As required by section 38(k) of the          loans with inadequate loan underwriting and a lack of other loan portfolio and risk management controls. Also,
Federal Deposit Insurance (FDI) Act, the     Alpha’s compensation policies excessively rewarded loan production without sufficient focus on asset quality.
Office of Inspector General (OIG)            The quality of loans suffered due to the bank’s aggressive growth model. Resulting losses severely eroded
conducted a material loss review of the      Alpha’s earnings and capital, leading to the bank’s failure and a material loss to the DIF.
failure of Alpha Bank and Trust (Alpha),
                                             Management. Alpha’s BOD did not ensure that bank management identified, measured, monitored, and
Alpharetta, Georgia. On October 24,
                                             controlled the risk of the institution’s activities. Although Alpha developed a business plan governing its
2008, the Georgia Department of
                                             activities, the plan was not kept current or followed. After 11 months in operation, total asset growth was nearly
Banking and Finance (DBF) closed
                                             double the planned projections. The bank operated under a nonregulatory-approved compensation plan that
Alpha and named the FDIC as receiver.
                                             rewarded loan production without emphasis on the quality of the loans. Additionally, Alpha did not comply with
On November 6, 2008, the FDIC
                                             regulatory orders/conditions, including a state (1) limitation on the payment of bonuses during the first 3 years of
notified the OIG that Alpha’s total assets
                                             operation and (2) requirement for sufficient asset quality controls in compensation policies. Further, Alpha rapidly
at closing were $334 million and the
                                             expanded lending operations without sufficient attention to associated risk management controls.
estimated loss to the Deposit Insurance
Fund (DIF) was $158 million.                 Asset Quality. Alpha’s ADC loans were concentrated in a rapidly growing local marketplace. The bank used
                                             interest reserves for many of the loans in its portfolio, which masked deterioration in asset quality. Additionally,
The audit objectives were to
                                             Alpha did not follow sound loan underwriting standards and administration practices, including those pertaining
(1) determine the causes of the financial
                                             to: (1) legal lending limits, (2) loan-to-value limits, and (3) recognition of problem assets. Alpha’s underwriting
institution’s failure and resulting
                                             process failed to fully capture the financial condition of borrowers. Asset quality was also adversely impacted by
material loss to the DIF and (2) evaluate
                                             compensation policies that focused on loan growth. As asset quality declined and losses were recognized, Alpha’s
the FDIC’s supervision of the institution,
                                             liquidity position became critical, and earnings and capital were eroded.
including implementation of the Prompt
Corrective Action (PCA) provisions of        Liquidity. Alpha relied on high-cost sources of funding such as time deposits of more than $100,000; brokered
section 38.                                  deposits; and Federal Home Loan Bank advances, to support its asset growth. The increased interest expense
                                             associated with these funding sources reduced earnings. Rapid asset growth, declining asset quality, and poor
Background                                   earnings strained liquidity. The overall deterioration in the bank’s condition impacted access to alternative
                                             sources of funding, including brokered deposits. As capital levels dropped, liquidity became a major problem
Alpha was a state-chartered nonmember        contributing to the bank’s failure.
bank insured on May 8, 2006. As a de
novo bank, for its first 3 years in          Supervision. The FDIC and DBF conducted timely examinations of Alpha. The FDIC provided additional
operation, Alpha was subject to              oversight through its off-site monitoring process and site visits. The April 2008 DBF examination found
additional supervisory oversight and         significant deterioration in asset quality, resulting in increased losses and further depletion of capital. As a result
regulatory controls, including the           of the April 2008 examination, the DBF, in conjunction with the FDIC, issued a Cease and Desist Order in July
development and maintenance of a             2008 in response to examination concerns. Those concerns included, but were not limited to, inadequate
current business plan. Further, Alpha, as    management oversight, deficient capital levels, high levels of classified assets, a prohibition on additional
a de novo institution, was in operation      advances to classified borrowers, weak lending and loan review practices, and earnings and liquidity deficiencies.
only 29 months. With one branch              In October 2008, the FDIC used its authority under the PCA provisions of the FDI Act to issue a PCA Directive
office, Alpha engaged principally in         when Alpha became critically undercapitalized. The FDIC has authority to take a wide range of supervisory
traditional banking activities within its    actions. In the case of Alpha, however, supervisory actions were not timely and effective in addressing the bank’s
local marketplace, which experienced a       most significant problems.
significant economic downturn starting
in 2007. Alpha had no holding                The FDIC has taken steps to improve its supervisory review of business plans, oversight of financial institutions
company, subsidiaries, or affiliates.        that have CRE loan concentrations, and identification and analysis of interest reserves at risk management
                                             examinations. Alpha’s significant growth was noted as a potential problem during the 2007 examination. The
Alpha’s assets consisted principally of      risks associated with weak loan underwriting and administration and compensation policies should have warranted
commercial real estate (CRE) loans,          greater concern. The extent of loan deterioration did not become evident to examiners until 2008. Greater
including a significant concentration in     concern regarding Alpha’s compliance with regulatory orders, loan underwriting administration, and ADC
residential acquisition, development, and    concentrations could have led to earlier supervisory action, particularly given the bank’s de novo status.
construction (ADC) loans. The FDIC
has recognized the increased risk that       The FDIC OIG plans to issue a series of summary reports on the material loss reviews it is conducting and will
CRE loans present to financial               make appropriate recommendations related to the failure of Alpha and other FDIC-supervised banks at that time.
institutions and has issued guidance that
describes a risk management framework        Management Response
to effectively identify, measure, monitor,
and control CRE concentration risk.          DSC agreed with the OIG’s conclusions regarding the causes of Alpha’s failure and the resulting material loss.
That framework includes effective            DSC stated that when real estate sales slowed, inventories rose and values in the bank’s marketplace experienced a
oversight by bank management,                significant downturn, the real estate construction industry and the ability of the bank’s borrowers to make payments
including the board of directors (BOD)       were both negatively impacted. DSC noted that at the 2007 examination, Alpha exhibited a high-risk profile and
and senior executives, and sound loan        that examiners appropriately expanded their loan coverage of Alpha’s portfolio. DSC stated that the supervisory
underwriting, administration, and            concern expressed in the 2007 Report of Examination was appropriate. However, in our view, greater concern
portfolio management practices.              regarding Alpha’s adherence to its approved business plan, compliance with regulatory orders, loan underwriting,
                                             credit administration, and ADC concentrations could have led to earlier supervisory action, particularly given the
                                             bank’s de novo status.
   To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                   Page


BACKGROUND                                                                   2
RESULTS IN BRIEF                                                             4
MANAGEMENT                                                                   5
  Ineffective BOD and Management                                             5
  Risk Management                                                            7
  Noncompliance with Regulatory Orders                                       8
  Deviations from the Business Plan                                          9
  Compensation Policy                                                       11
  Regulatory Supervision Related to Management                              13
ASSET QUALITY                                                               14
  Examiner Concerns and Recommendations Regarding Asset Quality             14
  Concentration in ADC Loans                                                15
  Interest Reserves                                                         16
  Loan Underwriting and Administration                                      17
  Regulatory Supervision Related to Asset Quality                           18
LIQUIDITY                                                                   20
  Examiner Concerns and Recommendations Regarding Liquidity                 21
  Regulatory Supervision Related to Liquidity                               22

IMPLEMENTATION OF PCA                                                       23

CORPORATION COMMENTS AND OIG EVALUATION                                     24

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                     27
  2. GLOSSARY OF TERMS                                                      29
  3. CORPORATION COMMENTS                                                   30
  4. ACRONYMS IN THE REPORT                                                 33
TABLES
  1. Financial Condition of Alpha                                            3
  2. Examples of Examiner Comments and Recommendations Regarding             6
       Alpha’s BOD and Management Performance
  3. Alpha’s Noncompliance with Regulatory Orders                            9
  4. Alpha’s Loan Classifications and ALLL                                  14
  5. Examples of Examiner Comments and Recommendations Regarding            15
      Alpha’s Asset Quality
  6. Alpha’s ADC Concentrations                                             16
  7. Alpha’s Non-Core Funding Sources and Net Non-Core Dependency Ratios    20
FIGURE
  Alpha’s Key CAMELS Ratings                                                 3
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     May 1, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Alpha Bank and Trust,
                                          Alpharetta, Georgia (Report No. AUD-09-010)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of Alpha
Bank and Trust (Alpha), Alpharetta, Georgia. On October 24, 2008, the State of Georgia,
Department of Banking and Finance (DBF), closed Alpha and named the FDIC as
receiver. On November 6, 2008, the FDIC notified the OIG that Alpha’s total assets at
closing were $334.5 million, and the estimated loss to the Deposit Insurance Fund (DIF)
was $158.1 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38.
Appendix 1 contains details on our objectives, scope, and methodology. Appendix 2
contains a glossary of terms. Acronyms used in the report are listed in Appendix 4.

This report presents the FDIC OIG’s analysis of Alpha’s failure and the FDIC’s efforts to
require Alpha’s management to operate the bank in a safe and sound manner. The FDIC
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    OIG is performing similar analyses regarding the failure of other FDIC-supervised
    financial institutions. The FDIC OIG plans to issue a series of summary reports on our
    observations on the major causes, trends, and common characteristics of financial
    institution failures resulting in a material loss to the DIF. Recommendations in the
    summary reports will address the FDIC’s supervision of the institutions, including
    implementation of the PCA provisions of section 38.


BACKGROUND

    Alpha was a state-chartered nonmember bank, established on May 8, 2006 by the DBF,
    and insured by the FDIC the same day. Alpha was closed October 24, 2008, making it
    the fastest failure of a financial institution out of the 136 failures between 1993 and 2008.
    In the 29 months Alpha was in operation, the bank:

            •    established its headquarters in Alpharetta, Georgia;

            •    opened a branch office in Marietta, Georgia;

            •    provided full service commercial banking activities, specializing in
                 acquisition, development, and construction (ADC) loans; and

            •    used jumbo certificates of deposit (CD), brokered deposits, Internet deposits,
                 and Federal Home Loan Bank (FHLB) borrowings as funding sources, in
                 addition to core deposits, to fund asset growth.

    Alpha did not have a holding company, subsidiaries, or affiliates. Alpha’s local
    marketplace was, at one time, characterized by rapidly appreciating real estate values.
    However, real estate values experienced a significant downturn that negatively impacted
    the real estate construction industry and borrowers’ ability to make payments.

    DSC’s Atlanta Regional Office (ARO) and DBF alternated safety and soundness examinations
    of Alpha, conducting three examinations from May 2006 through October 2008. Alpha’s
    composite rating remained a 2 until the April 2008 DBF examination when it was downgraded
    to 4,3 indicating unsafe and unsound practices or conditions and a distinct possibility of failure
    if such conditions and practices were not satisfactorily addressed and resolved. After an off-
    site review of Consolidated Report of Condition and Income (Call Report) information, the
    FDIC downgraded Alpha’s composite rating to 5 in August 2008, indicating extremely unsafe
    and unsound practices or conditions; critically deficient performance, often with inadequate
    risk management practices; and great supervisory concern. Institutions in this category pose a
    significant risk to the DIF and have a high probability of failure.


    3
      Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
    (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
    Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
    Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
    through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

                                                       2
Further, with respect to selected component ratings, as indicated in Figure 1 below, at the April
2008 DBF examination, Alpha’s management rating was downgraded from 2 to 4, and its asset
quality rating was downgraded from 1 to 4. As a result of the August 2008 FDIC off-site
review, officials downgraded Alpha’s asset quality and liquidity ratings to 5.


                                         Alpha's Key CAMELS Ratings


                       15                                                                           Oct-06
      CAMELS Ratings




                       24
                       33                                                                           Apr-07
                       42
                                                                                                    Apr-08
                       51
                       0                                                                            Aug-08
                            Composite
                                1       Manage
                                             2 ment      Asse t3Q uality      Liquidity
                                                                                4




To address examination concerns, including apparent violations of laws and regulations,
inadequate risk management controls, and other safety and soundness issues, the DBF, in
consultation with the FDIC, issued a Cease and Desist Order (C&D) effective on July 27,
2008, and the FDIC issued a PCA Directive to Alpha on October 10, 2008.

Details on Alpha’s financial condition, as of June 2008, and for the four preceding report
periods follow in Table 1.

Table 1: Financial Condition of Alpha
                                            30-June-08     31-Dec-07       30-June-07     31-Dec-06     30-June-06
Total Assets ($000s)                         $383,235       $363,894        $278,197      $168,030       $44,032
Total Deposits ($000)                        $359,911       $321,643        $235,928      $133,658       $10,016
Total Loans ($000s)                          $321,235       $322,355        $238,350      $136,462       $12,817
Annualized Net Loan Growth Rate                35%           136%           1760%           N/A               N/A
Net Income (Loss) ($000s)                    ($6,833)       ($7,851)         $243         ($1,494)           ($580)
Loan Mix (% of Avg. Gross
Loans):
All Loans Secured by Real                    88.36%         90.99%          91.57%         91.84%        95.85%
Estate
 Construction and Development                 76.48%         77.14%         75.74%         74.52%        66.32%
 CRE - Nonfarm/ nonresidential                10.12%         11.82%         13.04%         13.53%        22.88%
 Multifamily Residential Real                 1.55%          1.79%           2.35%         3.06%             5.82%
 Estate
 1-4 Family Residential –                     0.87%          0.08%           0.09%         0.15%             0.00%
 excluding Home Equity Lines of
 Credit
 Home Equity Loans                            0.05%          0.17%           0.34%         0.58%             0.85%
Construction and Industrial                   6.97%           4.40%          2.65%          1.65%            4.15%
Loans
Adverse Classifications Ratio                  N/A            129%            N/A            0%               0%

Source: Uniform Bank Performance Report (UBPR) and Reports of Examination (ROE) for Alpha.



                                                                3
RESULTS IN BRIEF

     Alpha failed primarily due to management’s aggressive pursuit of asset growth
     concentrated in high-risk ADC loans with inadequate loan underwriting and a lack of
     other loan portfolio and risk management controls. Also, Alpha’s compensation policies
     excessively rewarded loan production without sufficient focus on asset quality. The
     quality of loans suffered due to the bank’s aggressive growth model. Resulting losses
     severely eroded Alpha’s earnings and capital, leading to the bank’s failure and a material
     loss to the DIF.

     Management. Alpha’s board of directors (BOD) did not ensure that bank management
     identified, measured, monitored, and controlled the risk of the institution’s activities.
     Although Alpha developed a business plan governing its activities, the plan was not kept
     current or followed. After 11 months in operation, total asset growth was nearly double
     the planned projections. The bank operated under a nonregulatory-approved
     compensation plan that rewarded loan production without emphasis on the quality of the
     loans. Additionally, Alpha did not comply with regulatory orders/conditions, including a
     state (1) limitation on the payment of bonuses during the first 3 years of operation and
     (2) requirement for sufficient asset quality controls in compensation policies. Further,
     Alpha rapidly expanded lending operations without sufficient attention to associated risk
     management controls.

     Asset Quality. Alpha’s ADC loans were concentrated in a rapidly growing local
     marketplace. The bank used interest reserves for many of the loans in its portfolio, which
     masked deterioration in asset quality. Additionally, Alpha did not follow sound loan
     underwriting standards and administration practices, including those pertaining to:
     (1) legal lending limits, (2) loan-to-value limits, and (3) recognition of problem assets.
     Alpha’s underwriting process failed to fully capture the financial condition of borrowers.
     Asset quality was also adversely impacted by compensation policies that focused on loan
     growth. As asset quality declined and losses were recognized, Alpha’s liquidity position
     became critical, and earnings and capital were eroded.

     Liquidity. Alpha relied on high-cost sources of funding such as time deposits of more
     than $100,000, brokered deposits, and Federal Home Loan Bank advances to support its
     asset growth. The increased interest expense associated with these funding sources
     reduced earnings. Rapid asset growth, declining asset quality, and poor earnings strained
     liquidity. The overall deterioration in the bank’s condition impacted access to alternative
     sources of funding, including brokered deposits. As capital levels dropped, liquidity
     became a major problem contributing to the bank’s failure.

     Supervision. The FDIC and DBF conducted timely examinations of Alpha. The FDIC
     provided additional oversight through its off-site monitoring process and site visits. As a
     result of the April 2007 examination, the FDIC advised bank management to resubmit its
     business plan with revised financial projections and strategies for obtaining additional
     equity capital. The April 2008 DBF examination found significant deterioration in asset
     quality, resulting in increased losses and further depletion of capital. As a result of the
     April 2008 examination, the DBF, in conjunction with the FDIC, issued a C&D in July

                                                  4
      2008. Examination concerns included, but were not limited to, inadequate management
      oversight, deficient capital levels, high levels of classified assets, a prohibition on
      additional advances to classified borrowers, weak lending and loan review practices, and
      earnings and liquidity deficiencies. In October 2008, the FDIC used its authority under
      the PCA provisions of the FDI Act to issue a PCA Directive when Alpha became
      critically undercapitalized. The FDIC has authority to take a wide range of supervisory
      actions. In the case of Alpha, however, supervisory actions were not timely and effective
      in addressing the bank’s most significant problems.

      The FDIC has taken steps to improve its supervisory review of business plans, oversight
      of financial institutions that have CRE loan concentrations, and identification and
      analysis of interest reserves at risk management examinations. Alpha’s significant
      growth was noted as a potential problem during the 2007 examination. However, the
      risks associated with weak loan underwriting and administration and compensation
      policies should have warranted greater concern. The extent of loan deterioration did not
      become evident to examiners until 2008. Greater concern regarding Alpha’s compliance
      with regulatory orders, loan underwriting administration, and ADC concentrations could
      have led to earlier supervisory action, particularly given the bank’s de novo status.


MANAGEMENT

      Examinations in 2006 and 20074 resulted in a 2 rating for Alpha management. At the
      subsequent 2008 examination, examiners found significant deterioration in asset quality,
      resulting in increased losses and depletion of capital during the de novo period of the
      bank.5 Management’s rating was then downgraded to a 4, indicating deficient BOD and
      management performance, risk management practices that were inadequate, and
      excessive risk exposure. The bank’s problems and significant risks had been
      inadequately identified, measured, monitored, or controlled and required immediate
      action by BOD and management to preserve the safety and soundness of the institution.


Ineffective BOD and Management

      The first examination occurred in October 2006 when the examiners noted concerns with
      director absences from meetings, exceptions to loan policy credit extension limits, and
      needed enhancements to the wire transfer policy. The April 2007 examination noted that
      total loans had increased from the projected $93 million within the 5 years of operation to
      $182 million after the first 11 months of operation. Examiners attributed the significant
      increase in loan growth to the fact that lending officers were able to generate more loans
      than originally anticipated. Alpha’s business results had exceeded the projections in the
      original business plan, and examiners reminded management that significant changes to
      4
        Initially, the draft ROE contained a 1 rating for management. However, in the ROE review process, the
      Case Manager downgraded this component to a 2 as a result of the examination findings and the lack of
      revised business projections from the bank which were required by the FDIC’s Final Order of Approval for
      Deposit Insurance.
      5
        De novo institutions are subject to additional supervisory oversight and regulatory controls, including the
      development and maintenance of a current business plan and increased examination frequency.

                                                            5
the bank’s business plan must be presented to regulators for approval before
implementation. Also, examiners noted that the bank should monitor the risk exposure of
large developers/guarantors on an ongoing basis to ensure the amount of debt does not
exceed the developers/guarantors’ repayment capacity. Examiners made
recommendations to enhance and further strengthen credit administration procedures,
Bank Secrecy Act (BSA) programs, and information technology policies. The 2007 ROE
did not address violations of banking laws and regulations, because the examiners’
criticisms of management practices were thought to be in areas management could handle
and correct in the normal course of business.

The April 2008 examination found the overall management of the institution to be
inadequate and resulted in a 4 management rating. Problems in the loan portfolio
surfaced in late 2007 and early 2008 as loans matured and the Atlanta real estate market
declined. The BOD terminated the Chief Executive Officer (CEO) in February 2008, and
new management began identifying more problems with loan operations. Loan
delinquencies vaulted with abrupt increases in past-due and nonaccrual loans attributed to
the maturity of single-pay loans6 and depletion of interest reserves on ADC loans.
Management had not established a loan review structure that was effective and adequate.
Further, Alpha did not comply with laws and regulatory orders (details are in Table 3).
Examiners determined that management had pursued an aggressive growth model
through concentration in ADC loans without fully mitigating the risk. Table 2, which
follows, provides examples of examiner concerns, comments, and recommendations
related to Alpha’s BOD and management.

Table 2: Examples of Examiner Comments and Recommendations Regarding
Alpha’s BOD and Management Performance
                              Examiner Comments                                          Examination Dates
                                                                                        Oct April April
                                                                                        2006 2007 2008
Overall conclusion on BOD and management performance
 • Satisfactory                                                                          9      9
 • Unsatisfactory                                                                                      9
 • Improvement needed and failure to adequately identify, measure, monitor, and                        9
    control risks
  BOD and management supervision of the bank has been ineffective in managing                          9
  asset quality
Compliance with laws and regulations
 • Three apparent violations: legal lending limits, real estate loan-to-value ratios,                  9
    and appraisals
 • Noncompliance with DBF Final Order or FDIC Final Order of Approval for                       9      9
    Deposit Insurance
Growth of operations
 • Loan growth was aggressive, significant, or faster than anticipated                          9      9
 • Loan portfolio was concentrated in high-risk ADC loans                                       9      9
Loan documentation and administration
 • Significant increase in loan staff                                                           9
 • Weaknesses in loan administration and loan underwriting                                             9


6
 Such loans require a large single payment at the end of the loan term after a series of low monthly
payments.

                                                      6
                              Examiner Comments                                         Examination Dates
                                                                                       Oct April April
                                                                                       2006 2007 2008
  • Inadequate risk management controls                                                               9
Examiner suggestions and/or recommendations
  • Enhance loan policy regarding wire transfers                                        9
  • Director attendance at meetings is important in a de novo bank                      9
  • Significant changes to the business plan must be presented and approved             9
  • Improve credit administration procedures, BSA programs, and information                   9
    technology policies
  • If growth continues at current pace, additional equity capital will be necessary          9
  • Review policies and procedures regarding ADC lending to determine if any                         9
    mitigating action could have been taken to reduce the risk associated with
    ADC lending
  • Evaluate ADC loan portfolio in consideration of changes in the current real                      9
    estate market
  • Continue to review the appraised values on collateral held to identify possible                  9
    loss exposure
  • Implement an effective loan review program                                                       9
Source: ROEs issued by the DBF and the FDIC.


Risk Management. Alpha did not ensure that adequate risk management controls were
implemented and did not adequately address deficiencies identified by examiners and
auditors related to the bank’s risk management controls for loan documentation,
administration, and monitoring.

The BOD and senior management focused on a strategy of aggressively growing the
bank’s assets, consisting primarily of high-risk ADC loans. Total assets from June 2006
through June 2008 grew, on a cumulative basis, from $44 million to over $383 million.
However, given Alpha’s BOD and senior management decisions to pursue such growth,
the bank did not adequately identify measure, monitor, and report on a regular basis to
the BOD on these concentrations, speculative lending, and interest reserves.

The April 2007 ROE noted that ADC concentrations were adequately monitored. No
adversely classified assets were identified, and past-dues loans were minimal. Internal
controls were generally adequate, and the risk management processes were adequate in
relation to, and consistent with, the institution’s business plan, competitive conditions,
and proposed new activities. However, the examination included recommendations to
monitor the global risk exposure of large developers/guarantors and fully document and
explain upward adjustments to collateral values.

By 2008, asset quality was negatively affected by a declining Atlanta real estate market.
DBF’s April 2008 examination indicated the bank’s condition as critical, with significant
deterioration noted in various areas. The amount of adversely classified assets was
excessive. Capital was deficient, and losses continued to erode that position. The bank’s
Tier 1 Leverage Capital ratio of 6.94 percent was significantly below the DBF- and
FDIC-approved conditions requiring a minimum 8 percent Tier 1 Leverage Capital ratio
during the bank’s de novo period. The asset-sensitive nature of the balance sheet and the
volume of higher-cost deposits used as a funding source exposed the bank to continued
declines in its net interest margin and earnings performance. The bank’s liquidity
                                                      7
position was marginal, and secondary sources of funding diminished, which resulted in a
relatively volatile, unstable liquidity situation. Examiners determined the current loan
review structure to be ineffective and inadequate and mentioned that a weak loan
underwriting process failed to fully capture the global financial condition of the borrower
and current market conditions.

We consider inadequate risk management controls and the lack of management action to
address control deficiencies to be a significant concern, which we will address in our
summary reports covering multiple bank failures.


Noncompliance with Regulatory Orders. According to the DSC Risk Management
Manual of Examination Policies (Examination Manual), an institution’s BOD and
management should implement appropriate policies and procedures to effect compliance,
detect instances of noncompliance, institute corrective measures, and provide adequate
training and retraining of officers and employees to prevent future infractions. Further,
the Examination Manual states that it is important that correction of all apparent
violations of laws and regulations be instituted promptly, regardless of their perceived
importance.

With respect to the regulatory orders, Alpha did not comply with specific conditions
included in the FDIC’s Final Order of Approval for Deposit Insurance and the Articles of
Incorporation for Alpha. For example, Alpha did not operate within the parameters of its
business plan as required by the FDIC and DBF. This was noted in the 2007 examination
and was a repeat condition in the 2008 examination.

We address the apparent violation of laws and regulations in the Asset Quality section of
this report. Table 3, which follows, summarizes the bank’s noncompliance with
conditions as articulated in the FDIC’s Final Order of Approval for Deposit Insurance
and the Articles of Incorporation for Alpha.7




7
 The 2007 FDIC examination, as reflected in the respective sections of the ROE, addresses the FDIC’s
order/conditions but does not specifically address DBF’s conditions.


                                                   8
   Table 3: Alpha’s Noncompliance with Regulatory Ordersa
     DBF Conditions in Articles of       FDIC Final Order of Approval for
        Incorporation for Alpha             Deposit Insurance/Conditions                 Compliance Comments
    Tier 1 Leverage Capital ratio -      Tier 1 Leverage Capital ratio - No       Noncompliance identified in the 2008
    No less than 8 percent               less than 8 percent throughout first 3   examination. As of March 31, 2008,
    throughout first 3 years of          years of operation.                      the Tier 1 Leverage Capital ratio was
    operation.                                                                    6.94 percent.b
    Business Plan - Bank shall           Business Plan - Bank shall operate       Noncompliance identified in the 2007
    operate within the parameters of     within the parameters of the             and 2008 examinations. The
    the business plan and both notify    business plan and both notify and        regulators had not approved a revised
    and obtain approval of any           obtain approval of any proposed          business plan.
    proposed major deviation prior       major deviation prior to
    to implementation during the         implementation during the first 3
    first 3 years of operation.          years of operation.
    Executive Management                 Not addressed                            The committee had not met.
    Committee – The BOD must                                                      Noncompliance was not addressed in
    establish an Executive                                                        the FDIC’s 2007 examination.
    Management Committee to                                                       Noncompliance was identified in the
    guide the CEO through the                                                     2008 examination.
    formative years of the bank.
    Dividends and Incentive              Not addressed                            Bonuses paid in 2007 and 2008.
    Bonuses - No dividends or                                                     Noncompliance was not addressed in
    incentive bonuses paid and/or                                                 the 2007 examination but was a major
    accrued without prior approval                                                issue in the 2008 examination.
    during the first 3 years of
    operation.
    Liquidity Ratio - No less than 10    Not addressed                          Liquidity ratio met in all
    percent throughout the first 3                                              examinations. However, quarterly
    years of operation, and the bank                                            internal reports were not submitted to
    shall forward to DBF quarterly                                              the DBF in 2007 and 2008.
    internal liquidity calculation                                              Noncompliance was reported by the
    reports.                                                                    DBF in correspondence to the bank.
    Brokered and Internet Deposit        Not addressed                          DBF correspondence indicated the
    Reports - Quarterly reports on                                              bank was in noncompliance, but the
    the total amount of brokered and                                            noncompliance was not a reportable
    Internet deposits during the first                                          condition in either the 2007 or 2008
    3 years of operation.                                                       examinations.
    Income and Expenses Statement        Not addressed                          DBF correspondence indicated the
    - Monthly statements of income                                              bank was in noncompliance, but the
    and expenses required during the                                            noncompliance was not a reportable
    first 3 years of operation.                                                 condition in either the 2007 or 2008
                                                                                examinations.
   Source: OIG review of the FDIC Deposit Insurance Order, Articles of Incorporation for Alpha, and ROEs.
   a
     The FDIC order has 14 conditions, whereas the DBF order has 32 conditions. Only those conditions the
   examiners identified as not in compliance are reflected in the table.
   b
     Compliance with Tier 1 Leverage Capital ratio requirements is addressed in the Implementation of PCA section
   of this report.



We consider noncompliance with regulatory orders to be a significant concern, which we
will address in our summary reports covering multiple bank failures.


Deviations from the Business Plan. Contrary to both the FDIC’s and DBF’s regulatory
final orders approving Alpha’s deposit insurance, Alpha did not operate within the
parameters of the submitted business plan and failed to notify the regulators of any
proposed major deviation or material change before making the change.


                                                         9
Proposed financial institutions are required to submit business plans with their initial
applications for federal deposit insurance. According to the FDIC Statement of Policy on
Applications for Deposit Insurance, and in compliance with sections 5 and 6 of the
FDI Act, the FDIC must be assured that the proposed institution does not present an
undue risk to the DIF. The FDIC expects that proposed institutions will submit a
business plan commensurate with the capabilities of its management and the financial
commitment of the incorporators. Any significant deviation from the business plan
within the first 3 years of operation, the de novo phase, must be reported by the insured
depository institution to the primary federal regulator before making the change.
Business plans that rely on high-risk lending, a special-purpose market, or significant
funding from sources other than core deposits, or that otherwise diverge from
conventional bank-related financial services, require specific documentation as to the
suitability of the proposed activities for an insured institution. Similarly, additional
documentation of a business plan is required where markets to be entered are intensely
competitive or economic conditions are marginal. Although not required, business plans
are expected to include information on projected financial data for a 3-year period.

Soon after the bank opened, examiners concluded that Alpha had significantly deviated
from its business plan by quickly exceeding financial projections and loan originations.
In particular, total loans increased from the projected $93 million to $182 million after
the first 11 months of operation. The examiners attributed the significant increase in loan
growth to the fact that lending officers were able to generate more loans than originally
anticipated. Growth of this magnitude significantly exceeded original planned
projections and required the bank to submit revised financial projections. Based on
Alpha’s rapid growth and examiner questions as to whether it would maintain an 8
percent Tier 1 Leverage Capital ratio through the de novo period, the FDIC notified
Alpha in June 2007 that the bank had materially deviated from its original business plan
and required management to submit a revised plan. However, these deficiencies
warranted greater supervisory concern.

On August 2, 2007, Alpha submitted a revised plan that included the formation of a
holding company, the issuance of trust preferred stock, and a curtailment of its trust
activities. On August 29, 2007, the FDIC and DBF met with Alpha regarding the
proposed changes, informing Alpha that the Federal Reserve Bank of Atlanta would have
to approve the request for a holding company. Additionally, FDIC and DBF examiners
expressed concerns about the use of trust preferred securities by a new bank.
On October 24, 2007, Alpha submitted a second revised business plan that removed the
trust preferred securities, proposed a $10 million sale of Alpha common stock, and
expanded trust activities. Regulators requested a third revision due to regulatory
questions regarding the trust department and inconsistencies in the revised financial
statements and the bank’s 2008 budget.

The third plan, received on December 28, 2007, contained revised financial projections
that incorporated increased trust activities, which reconciled to the 2008 budget, and
provided for a $10 million capital injection by February 15, 2008. The FDIC expressed
no objection to the revisions in the business plan subject to the bank providing



                                            10
$10 million in additional capital, maintaining a well capitalized position, and maintaining
the previously committed 8 percent Tier 1 Leverage Capital ratio and 10 percent liquidity
ratio. Alpha’s performance began deteriorating in early 2008, and the bank was unable to
raise the additional capital.

We consider deviations from the business plan to be a significant concern, which we will
address in our summary reports covering multiple bank failures.


Compensation Policy. As part of the approval of new institutions, DBF requires
institutions to have a compensation policy that addresses core compensation; signing
bonuses; other bonuses or incentive compensation features; and other forms of
compensation, including deferred compensation provided to a bank’s officers. The DBF
2008 ROE stated that Alpha operated under a nonregulatory-approved compensation
policy that excessively rewarded loan production. DBF specifically established a
condition in its approval of the Articles of Incorporation for Alpha that commission-
based compensation plans must include asset quality controls. In 2007, DBF questioned
Alpha’s draft compensation policy, particularly the production-based incentive
compensation for the chief lending officer. DBF did not find sufficient asset quality
guidelines that addressed, for example, past-due loans, classifications, charge-offs, and
technical exceptions for the chief lending officer as part of the compensation policy.

Also, according to the conditions contained in the DBF approval of the Articles of
Incorporation for Alpha, “… during the first three years of operation, no dividends or
incentives [will] be paid and/or accrued without the prior approval of the Department.”
For new charter approvals issued by the DBF, part of the standard condition states that
“any revision to the compensation policy that represents a material increase in the
compensation for senior officers during the first three years of the bank’s operations shall
require DBF approval.” A material increase is defined as any increase in any form of
compensation that is 5 percent or greater per year and is not in the compensation policy
the DBF approved. Bank management submitted a compensation policy on several
occasions for DBF review and approval; however, numerous revisions were required, and
the policy was not formally approved. For example, in May 2007, Alpha’s compensation
policy proposal stated that salary increases can be awarded in the range of 0-20 percent.
In reviewing this version of the compensation policy, DBF took the position that, based
on other banks’ approved policies, an annual salary increase of 20 percent of the base
salary appeared excessive. DBF asked Alpha management for an explanation of the
bank’s salary proposal. The bank president’s December 2007 letter to DBF stated that
“the management team and [BOD] have been quite occupied with the task of revising the
bank’s business plan and other significant projects. We have substantially completed our
higher priority projects and recently turned attention back to the executive incentive plan
project.”

Meanwhile, Alpha paid bonuses in 2007 and 2008 without an approved policy. For
example, as of March 31, 2007, a senior vice president had received a $50,000 bonus.
The DBF April 2008 examination showed that one senior vice president loan officer had



                                            11
received a base salary of $154,000 and a bonus/commission of $206,000, totaling
$360,000 for 2007. DBF examiners deemed this to be excessive. On July 25, 2008,
Alpha responded to the DBF regarding the finding on the loan officer’s salary, stating the
BOD:

       … was not aware of the magnitude of the bonus/commission paid to the identified lender
       referred to in the finding. The Board agrees that it was excessive. In response to the
       finding and the bank’s current financial condition, all salary incentives have been
       terminated for lenders within the bank. Bank management is currently in negotiations
       with said lender to substantially reform his contract and compensation package. It is
       management’s intention that all lenders will comply with the Bank’s new compensation
       policy already submitted to the Georgia Department for approval.

The DBF issued a C&D to Alpha’s BOD on July 16, 2008 stating, among other things,
unsafe and unsound practices by engaging in violations of applicable federal state laws
and regulations. Specifically, item number 16 of the order states,“the Bank shall not pay
cash dividends or bonuses without the prior written consent of the Supervisory
Authorities.”

The conditions in the FDIC’s Final Order of Approval for Deposit Insurance for Alpha
state,“That any proposed stock compensation plans (including stock options, warrants, or
other stock based compensation plans) to be granted to organizers, directors or executive
officers of the bank during the first three years of operation require prior notice and letter
of non-objection from the Atlanta regional Director.” Unlike DBF’s conditions, the
FDIC’s conditions do not address overall compensation policies; other forms of
compensation (i.e., salaries, bonuses, and/or commissions); and compensation for officers
below the executive level. However, the FDIC may sometimes review the
reasonableness of the compensation plans for senior executive officers.

The FDIC and the other federal regulators have increased their focus on compensation
policies. A November 12, 2008 joint release statement by the federal regulatory agencies
states:
       … poorly-designed management compensation policies can create perverse incentives
       that can ultimately jeopardize the health of the banking organization … Management
       compensation policies should be aligned with the long-term prudential interests of the
       institution, should provide appropriate incentives for safe and sound behavior, and should
       structure compensation to prevent short-term payments for transactions with long-term
       horizons.

The agencies expect banking organizations to regularly review their management
compensation policies to ensure they are consistent with the long-term objectives of the
organization and sound lending and risk management practices. We consider
performance bonus programs that do not address asset quality objectives to be a
significant concern, which we will address in our summary reports covering multiple
bank failures.




                                              12
Regulatory Supervision Related to Management

      DSC’s Examination Manual states that the quality of management is probably the single
      most important element in the successful operation of a bank. The BOD is responsible
      for the formulation of sound policies and objectives for the bank, effective supervision of
      its affairs, and promotion of its welfare, while the primary responsibility of senior
      management is implementing the BOD’s policies and objectives in the bank’s day-to-day
      operations. DSC’s Examination Manual also states that the capability and performance
      of management and the BOD is rated based upon, but not limited to, an assessment of
      compliance with laws and regulations. In addition, according to the DSC’s Case
      Manager Procedures Manual, the risk posed by any particular institution is a function of
      the business plan pursued, management’s competency in administering the institution’s
      affairs, and the quality and implementation of risk management programs.

      Based on the results of the 2007 examination, DSC’s review of Alpha’s business plan
      focused on the bank’s financial projections. DSC’s review included a limited assessment
      of Alpha’s risk management controls compared to the bank’s actual practices. Although
      DSC required Alpha to provide updated financial and budget data, DSC did not require
      Alpha to provide a revised business plan that addressed high-risk lending in ADC loans,
      the bank’s concentration in such loans, and how the bank planned to mitigate such risk
      through appropriate loan documentation, administration, and lending strategies.

      The FDIC’s April 2007 examination addressed compliance with the conditions in the
      FDIC’s Final Order of Approval for Deposit Insurance and the business plan; however,
      the examination did not address Alpha’s noncompliance with the DBF’s conditions in the
      Articles of Incorporation for Alpha. Most noticeably, the examination mentioned
      significant growth but did not address Alpha’s compensation practices, monthly income
      expense statements, and quarterly liquidity reports.

      DSC’s examiner guidance related to business plans did not provide a definition of
      significant deviations. In June 2008, DSC’s ARO issued examiner guidance for
      determining what constitutes a major deviation or material change in business plans for
      de novo institutions during the first 3 years of operation. That guidance states that
      examiners should consider whether changes have occurred in growth levels, asset and
      liability mix or products offered, and plans for branch offices.

      The FDIC provided additional oversight through its off-site monitoring process. From
      October 2007 through March 2008, DSC conducted three off-site reviews. The
      October 2007 off-site review discussed loan growth, the need for business plan revisions,
      and the possibility that a reduction in the Tier 1 Leverage Capital ratio might call for
      an additional stock issuance to support loan growth. The January 2008 off-site review
      showed that the bank remained profitable. Finally, the March 2008 off-site review showed
      that the bank’s financial condition had deteriorated and that the bank had delayed the stock
      offering of $10 million due to its recent poor financial performance. As a result, DBF
      accelerated the date of its third-year safety and soundness examination from May 2008 to
      April 2008.



                                                  13
ASSET QUALITY

      Alpha’s asset quality was rated 1 at its 2006 and 2007 examinations. At the 2007
      examination, asset quality was characterized as strong with no adversely classified assets
      and minimal past-due loans. However, the examiner made recommendations to enhance
      loan underwriting and credit administration. In addition, examiners stated that the
      allowance for loan and lease losses (ALLL) appropriately reflected the risk in the
      portfolio.

      At the 2008 examination, Alpha’s asset quality rating was downgraded to a 4, indicating
      that the bank’s risk level and problem assets were significant and inadequately controlled.
      The examiners concluded that Alpha’s focus on asset growth had resulted in weaknesses
      in loan administration and loan underwriting.

      Alpha’s asset quality deteriorated as loan classifications significantly increased, from
      zero in 2006 and 2007 to over $49 million in 2008. Corresponding increases in the
      bank’s ALLL were also significant (see Table 4). At the April 2008 examination,
      adversely classified loans represented 129 percent of capital.

      Table 4: Alpha’s Loan Classifications and ALLL
                                                       Asset Quality
                                                   (Dollars in Thousands)
                                   Loan Classifications                          Analysis of ALLL

                                                                                           Increase in
                                                              Total           ALLL           ALLL
      Examination                                           Classified      Computed by    Required by
         Date        Substandard   Doubtful       Loss        Items           Alpha        Examiners

      Oct 06               0           0           0            0              $129             0
      April 07             0           0           0            0             $1,370            0
      April 08          $46,189      $3,421        0         $49,610          $11,922           0
     Source: ROEs for Alpha.



Examiner Concerns and Recommendations Regarding Asset Quality

      Examiner concerns regarding Alpha’s asset quality related to the bank’s concentration in
      high-risk ADC loans, its inappropriate replenishment of interest reserves, and its poor
      loan underwriting and administration (see Table 5, which follows). These loan
      underwriting deficiencies should have been detected and addressed as part of an adequate
      loan approval process.




                                                       14
Table 5: Examples of Examiner Comments and Recommendations Regarding
Alpha’s Asset Quality
                    Examiner Comments                                     Examination Dates
                                                                  Oct 2006   April 2007 April 2008
Overall conclusion on asset quality
• Strong                                                             9          9
• Asset quality deficient, and criticized assets have reached a                             9
critical level
CRE and ADC concentrations
• Concentration already developed                                    9          9           9
• Concentration is adequately monitored by management                9          9
• Overall exposure to this industry has caused a significant                                9
decline in asset quality, and management should review its
policies and procedures regarding ADC lending
Adverse classifications
• No adverse classifications                                         9          9
• Level of adverse classifications is considered excessive                                  9
Assessment of risk management practices
• Risk management, monitoring, and reporting practices                                      9
ineffective or inadequate
• Loan documentation and underwriting standards satisfactory         9          9
• Loan documentation and underwriting standards need                                        9
improvement
• ALLL amount and methodology adequate                               9          9           9
• Incomplete and unsigned appraisal reviews                                                 9
• Incorrectly recorded interest rates on the loan system                                    9
Recommendations
• Bank management should monitor the global risk exposure of                    9           9
large developers/guarantors to ensure amount of debt does not
exceed repayment capacity
• Bank management should determine that upward adjustments to                   9
collateral values by the appraiser are fully explained and
documented in the appraisal report
• Bank management should strengthen the loan review process                                 9
by having at least a quarterly external loan review
• Bank management should expand the quarterly concentration                                 9
report to include all concentrations of credit to individuals
Source: ROEs for Alpha.



Concentration in ADC Loans. Alpha focused its loan portfolio in high-risk ADC loans
and did not ensure that adequate risk management controls were developed and
implemented. Alpha’s concentration in ADC loans was noted in each of the examination
reports. This ADC loan concentration steadily increased as a percentage of Tier 1 Capital
as indicated in Table 6, which follows.




                                                  15
Table 6: Alpha’s ADC Concentrations
            ROE Date                  ADC Amount Funded as          Total ADC Commitments as
                                        a Percent of Tier 1          a Percent of Tier 1 Capital
                                             Capital
 October 30, 2006                             156%                              330%
 April 23, 2007                               266%                              509%
 April 14, 2008                               684%                              860%
Source: OIG review of ROEs.



On December 12, 2006, the FDIC issued interagency guidance on CRE lending entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices,
which also addresses ADC lending. According to the guidance, the FDIC and the other
federal regulatory agencies have acknowledged that a concentration in CRE loans,
coupled with weak loan underwriting and depressed markets, has contributed to
significant loan losses.8 However, Alpha’s management did not implement timely
actions to address its ADC concentration risk. Further, in the April 2008 examination,
examiners identified a high level of adverse classifications. As asset quality declined and
losses were recognized, Alpha’s earnings and capital were eroded. We consider loan
concentrations without adequate risk management controls to be a significant concern,
which we will address in our summary reports covering multiple bank failures.


Interest Reserves. Alpha did not have appropriate controls related to the use and
tracking of interest reserves. Alpha’s loan policy stated that the bank should not
capitalize accrued interest when renewing or rewriting an existing loan unless the
repayment of the capitalized interest is tied to an identifiable source of repayment in the
near term. The policy also stated that any device that avoids the recognition of loan
delinquency is prohibited. However, Alpha did not follow this policy and used interest
reserves to mask the deterioration of loans. Based on a schedule of loans with interest
reserves that Alpha prepared in January 2008, the OIG determined that Alpha used about
$11.1 million in interest reserves to fund loans. Of that amount, $4.4 million (about
40 percent) was associated with loans that were adversely classified, as noted in the April
2008 ROE, because borrower payments were past due, and collateral values were
insufficient. Additionally, the schedule showed two instances where the amount of used
interest reserve exceeded the total amount of interest reserve set aside for the loan. We
consider inadequate controls over the use and tracking of interest reserves to be a
significant concern, which we will address in our summary reports covering multiple
bank failures.

DSC has issued examiner guidance on the use of interest reserves. In November 2007,
the ARO issued regional examiner guidance entitled, Identification and Analysis of
Interest Reserves at Risk Management Examinations. In April 2008, DSC issued FDIC-

8
  The FDIC also issued Financial Institution Letter (FIL) 22-2008 on March 17, 2008, entitled, Managing
Commercial Real Estate Concentrations in a Challenging Environment, which re-emphasized the
importance of strong capital and ALLL and loan risk-management practices for state nonmember
institutions with significant CRE and ADC loan concentrations.


                                                   16
wide examiner guidance reiterating the November 2007 ARO guidance. In addition, in
July 2008, DSC issued guidance to examiners and FDIC-supervised financial institutions
on the use of interest reserves in ADC lending, the risk this underwriting practice could
present, and “red flags” that should alert lenders to potential problems at each stage of the
ADC cycle.


Loan Underwriting and Administration. Alpha did not follow sound loan
underwriting standards and administration practices, including those relating to: (1) legal
lending limits to individuals, (2) loan-to-value limits, and (3) recognition of problem
assets. These weaknesses contributed to a decline in asset quality.

Alpha did not follow a state legal lending limit designed to help banks avoid
concentrations of lending to an individual. Alpha was cited in the 2008 examination
report for a violation of section 7-1-285 of the Financial Institutions Code of Georgia,
which states that a bank shall not directly or indirectly make loans to any one person or
corporation which, in the aggregate, exceed 25 percent of Tier 1 Leverage Capital. The
2008 examination report listed nine borrowing relationships in which the amount of loans
for each borrower exceeded 25 percent of Tier 1 Leverage Capital. Examiners noted
loans to one specific borrower that totaled over $10.3 million, or 39 percent of Tier 1
Leverage Capital and were in excess of the statutory limit by 14 percent, based on the
bank’s capital position. Additionally, this concentration of credit issue was
acknowledged and discussed by Alpha’s Directors Loan Committee in May 2007 at the
time the bank made the final loan advance to this borrower. These concentrations of
credit to individual borrowers increased Alpha’s risk profile. However, the 2007 ROE
addressed only Alpha’s industry concentration and made no mention of concentrations to
individuals or loans that exceeded loan-to-value limits.

Alpha made loans that exceeded regulatory loan-to-value limits. The ROE for the 2008
examination describes Alpha’s violations of the loan-to-value limits for real estate loans
prescribed in Part 365 of the FDIC’s Rules and Regulations. Part 365 establishes loan-to-
value limits ranging from 65 to 90 percent of value based on the type of collateral. Part
365 also specifies that value means the lesser of the actual acquisition cost or the estimate
of value. Alpha’s loan policy established the same loan-to-value limits as in Part 365;
however, the bank did not follow these limits. The ROE identified two instances in
which the amount of the loan exceeded the loan-to-value limits in Alpha’s loan policy
and Part 365. In both cases, the amount of the loan exceeded 100 percent of the
acquisition cost of existing property. Failure to follow loan-to-value limits can increase
the amount of loss for an institution in cases where the borrower defaults and the
collateral is the only source of repayment.

Alpha’s recognition of problem assets was not timely. Alpha’s loan policy describes a
process to maintain an ongoing review of asset quality. The policy states that the review
process shall consist of a complete file review and shall result in each credit being
verified for a proper risk rating. However, Alpha did not proactively adjust the internal
risk ratings it assigned to its problem loans. For example, an external loan review



                                             17
      conducted in February 2008 noted that the bank had assigned internal risk ratings above
      the substandard category for four loans with a total value of approximately $14.5 million.
      However, the external loan review firm recommended that each of these loans be
      classified as substandard because of cash flow problems with guarantors and uncertain
      collateral value. DBF’s April 2008 examination also concluded that these loans should
      be classified as substandard. Earlier recognition of problem assets by Alpha management
      may have led to earlier corrective action by the bank.

      Alpha’s underwriting processes, including internal loan approvals, failed to fully capture
      the weak financial condition of some borrowers. Alpha’s loan policy, dated April 2006,
      contained provisions covering approval of loans based on dollar amount and type of
      loans, and these approvals were obtained. However, underwriting weaknesses, such as
      incomplete appraisals, were not detected or addressed as part of this process. We
      consider loan underwriting and administration weaknesses to be a significant concern,
      which we will address in our summary reports covering multiple bank failures.


Regulatory Supervision Related to Asset Quality

      Alpha’s loan administration deficiencies, particularly its risk management of an ADC
      concentration, should have warranted greater concern during the 2007 examination.
      DSC’s Examination Manual states that the examiner’s evaluation of a bank’s lending
      policies, credit administration, and the quality of the loan portfolio is among the most
      important aspects of the examination process. In 2007, examiners recognized that Alpha
      had an ADC concentration. They reviewed a sample of 43 percent of total loans,
      including ADC loans. Based on this review, examiners made recommendations to
      monitor borrower repayment capacity and document upward adjustments to collateral
      values by appraisers. However, the examiners did not identify weaknesses (for example,
      the 2007 ROE noted incomplete appraisals, replenished interest reserves, capitalized
      interest, and interest rates on notes that were not consistent with the rates booked in the
      system) in Alpha’s risk management practices that, when combined with a downturn in
      the residential real estate market, would result in severe asset quality deterioration.

      Examiners did not determine whether Alpha was following its loan policy guidelines on
      ADC concentrations. DSC’s Examination Manual states that there are certain broad
      areas of consideration and concern that should be addressed in the lending policies of all
      banks regardless of size or location. The bank’s lending policy should include
      guidelines, which, at a minimum, address the goals for portfolio mix and risk
      diversification and cover the bank’s plans for monitoring and taking appropriate
      corrective action, if deemed necessary, on any concentrations that may exist. Although
      Alpha’s loan policy addressed goals for portfolio mix and risk diversification, the BOD
      and management did not ensure that the bank implemented the policy guidelines for ADC
      concentrations. On June 30, 2006, Alpha’s percentage of ADC loans to total assets was
      19 percent. This percentage did not exceed the 20-40 percent range recommended in the
      bank’s loan policy. However, the bank’s percentage of ADC loans to total assets
      increased to 60 percent by December 31, 2006, which was significantly higher than the



                                                  18
range recommended in the bank’s loan policy. The April 2007 examination identified
that the bank had an ADC loan concentration; however, examiners did not report that the
level exceeded the range in Alpha’s loan policy or make recommendations for the bank to
diversify its portfolio. In fact, the percentage of ADC loans to total assets further
increased to 70 percent by December 31, 2007.

The examiners’ conclusions on Alpha’s ability to control the risk of its ADC
concentration varied. In the October 2006 ROE, examiners concluded that the bank had
adequate procedures in place to monitor and control this concentration. Likewise, in the
April 2007 ROE, examiners concluded that the ADC concentration was adequately
monitored through various reports. Greater supervisory concern in 2007 regarding
Alpha’s loan documentation and administration deficiencies could have led to elevated
supervisory attention and earlier supervisory action.

The April 2008 ROE stated that while management actively monitored the ADC
concentration, the overall exposure to this industry resulted in a significant decline in
asset quality. The ROE recommended that management review policies and procedures
regarding ADC lending to determine if any mitigating action should be taken to reduce
the risk associated with ADC lending.

On July 17, 2008, the DBF, in consultation with the FDIC, issued a C&D to Alpha. The
C&D, among other things, required Alpha to:

   •   submit specific plans and proposals to:

       o   address loan underwriting weaknesses;
       o   strengthen management of loan operations;
       o   strengthen collections;
       o   address the appropriate use of interest reserves;
       o   control loan disbursements; and
       o   ensure proper financial analysis of potential and existing credit relationships,
           including the documentation of cash flow for the primary and secondary
           sources of repayment.

   •   Adopt a written lending policy to provide for a planned material reduction in the
       volume of funded and unfunded ADC loans as a percentage of Tier 1 Capital.

   •   Adopt an effective system of loan review and grading to promptly identify loans
       with well-defined credit weaknesses so that timely action can be taken to
       minimize credit loss.

The C&D addressed issues related to Alpha’s asset quality—some of these issues were
apparent during the 2007 examination and warranted additional supervisory concern at
that time. Additionally, while the C&D restricted cash dividends and bonuses, it did not
address deficiencies in Alpha’s overall compensation policy.




                                            19
LIQUIDITY

     Liquidity represents the ability to fund assets and meet obligations as they become due.
     Liquidity is essential in all banks to compensate for expected and unexpected balance
     sheet fluctuations and provide for growth. Alpha relied on high-cost sources of funding
     to support its asset growth. The increased interest expense associated with these funding
     sources reduced earnings. Rapid asset growth, declining asset quality, and poor earnings
     eventually strained liquidity and impacted access to alternative sources of funding. As
     capital levels dropped, liquidity or the lack thereof, became a major problem,
     contributing to the bank’s failure.

     Alpha’s liquidity rating steadily declined from a 1 in the October 2006 examination, to a
     2 in the April 2007 examination, to a 3 in the April 2008 examination. The overall
     deterioration in the bank’s condition impacted access to secondary sources of liquidity,
     including brokered deposits. Alpha submitted a brokered deposit waiver application to
     the FDIC in May 2008, but withdrew the application in July 2008 when bank
     management disclosed the bank would fall into an undercapitalized position. Liquidity
     was downgraded to a 5 in the August 2008 examination.

     A bank’s net non-core dependency ratio indicates the degree to which the bank is relying
     on non-core/volatile liabilities such as time deposits of more the $100,000; brokered
     deposits; and FHLB advances to fund long-term earning assets. Generally, the lower the
     ratio, the less risk exposure there is for the bank. Higher ratios reflect a reliance on
     funding sources that may not be available in times of financial stress or adverse changes
     in market conditions. Alpha’s reliance on non-core/volatile liabilities increased from
     mid-2006 through the end of 2007 and exceeded its peer group during this time.
     However, as Alpha began to recognize losses in its loan portfolio in 2008, it also
     decreased its dependency on non-core funding. Table 7, which follows, provides a
     synopsis of Alpha’s deposits and other funding sources and net non-core dependency
     ratios.

     Table 7: Alpha’s Non-Core Funding Sources and Net Non-Core Dependency Ratios
                                     Non-Core Funding Sources                      Net Non-Core Dependency
                                        (Dollars in Thousands)                          Ratios (Percent)
             Date             Time Deposits       Brokered
                               $100,000 or        Deposits     FHLB                   Alpha           Peer Group
                                 More*
        June 30, 2006                    $885            $0         $0                     -220.07%     -353.53%
         Dec 31, 2006                  $37,491        $22,589              $0               11.09%      -113.74%
        June 30, 2007                  $64,589        $26,848              $0               19.22%        -7.97%
         Dec 31, 2007                  $74,299        $45,882          $2,000               22.34%        16.45%
        June 30, 2008                  $63,294        $35,055              $0               11.25%        26.75%
    Source: Review of Alpha’s UBPR and ROEs.
    *
      Time deposits of $100,000 or more include the amounts shown for brokered deposits.




                                                        20
Examiner Concerns and Recommendations Regarding Liquidity

      Due to competition for local deposits, brokered and Internet deposits had become an
      alternative source to fund Alpha’s loan growth. Sources of liquidity consisted of federal
      funds sold, interest-bearing deposits with banks, investment securities, and unsecured
      federal fund lines. Alpha relied on high-cost and volatile sources of funding such as time
      deposits of more than $100,000; brokered deposits; and FHLB advances to support its
      asset growth. Liquidity risk is the risk of not being able to obtain funds at a reasonable
      price within a reasonable period to meet obligations as they become due. In Alpha’s
      case, the increased interest expense associated with these funding sources reduced
      earnings and increased liquidity risk.

      According to the ROEs, Alpha’s liquidity position started strong with a liquidity ratio of
      37.82 percent as of September 30, 2006. The non-core dependency ratio of 12.12 percent
      at that date indicated that the bank was not heavily dependent on volatile liabilities to
      fund asset growth. As a de novo bank, Alpha generally had ample liquid assets as core
      deposits grew. However, by April 2007, the significant loan growth had prompted
      management to augment the core deposit growth with brokered deposits and Internet
      CDs, resulting in the high non-core funding dependency ratio of 19.76 percent as of
      March 31, 2007. According to examiners, back-up borrowing lines were in place, and
      examiners deemed liquidity and funds management practices to be satisfactory.

      Subsequently, the net non-core funding dependency ratio increased from 18.56 percent as
      of December 31, 2007 to 23.69 percent as of March 31, 2008. The change was primarily
      attributed to an increase in non-core funding by $28 million in the first quarter of 2008.
      As of March 31, 2008, these potentially volatile liabilities primarily included:

           •   $38.5 million for non-core jumbo CDs;
           •   $36.8 million for brokered deposits;
           •   $8 million for the purchase of federal funds;
           •   $9 million for FHLB borrowings;
           •   $5.1 million for QwickRate9 CDs; and
           •   $15.1 million for the Certificate of Deposit Account Registry Service (CDARS)10

      As of March 31, 2008, the bank’s liquidity ratio was 11.58 percent. The liquidity
      position was deemed marginal considering the deteriorating asset quality shown by
      adversely classified items coverage of 128.99 percent, the increase in net losses, and the
      diminishing secondary sources of funding. The bank’s core liquidity was derived from
      federal funds sold at $11,894,000; interest bearing CDs at $16,228,000; and unpledged
      securities at $7,344,000. At the same time, total assets were $385 million, and core
      deposits totaled $259 million, or 67 percent of assets.
      9
        QwickRate, a private network, is a rate listing service, providing subscriber access to the entire funding
      and investing process.
      10
         CDARS is a deposit-placement service. When a depositor places a large deposit with a network member,
      that institution may use CDARS to place the depositor’s funds into CDs issued by the other banks in the
      network. The premise is that this occurs in increments of less than $100,000 to ensure that both principal
      and interest are eligible for full FDIC deposit insurance.


                                                          21
      Secondary sources of funding became limited because the federal fund lines of credit
      required collateral in order to draw on the lines. The bank had only one remaining
      unsecured federal funds line, which was with another bank for $8.5 million, and an
      FHLB borrowing limit of $17.3 million, of which $9 million had already been utilized.

      By August 2008, liquidity was strained. The overall deterioration in the bank’s condition
      impacted access to alternative sources of funding, including brokered deposits. The
      liquidity ratio was 15 percent and centered in federal funds sold and unpledged securities.
      Although liquidity improved, it remained susceptible to deposit outflows due to negative
      publicity about the bank. Based on a DSC off-site review, earnings did not support
      operations or capital due to a high level of non-performing assets and high-provision
      expenses. Tier 1 Leverage Capital had decreased to 5.27 percent, below the 8 percent
      minimum required by both the FDIC order granting deposit insurance and the July 17,
      2008 DBF C&D. Growth in excess of initial projections and sizeable operating losses
      were primary contributors to an inadequate capital position.


Regulatory Supervision Related to Liquidity

      In the early examinations, examiners did not make recommendations related to Alpha’s
      liquidity position. In the first examination, examiners found Alpha’s liquidity position to
      be strong. Capital levels were sufficient to protect the bank against normal losses and
      allow for future growth. In the second examination, examiners commented that liquidity
      and funds management practices were satisfactory. The bank had a contingency funding
      plan for a “liquidity crisis.” However, significant loan growth had prompted
      management to augment core deposit growth with brokered deposits and Internet CDs.
      Examiners warned bank management that while the use of brokered deposits can be a
      cost-effective method of funding loan growth on a temporary basis, the long-term use of
      brokered deposits is not considered a cost-effective alternative to establishing and
      retaining a strong core deposit base.

      Our review of DBF correspondence files showed that the state examiners had notified
      Alpha management on February 2, 2007 and again on May 7, 2008 that management was
      not complying with the DBF’s conditions in Articles of Incorporation for Alpha, dated
      February 7, 2006, requiring quarterly reports on (1) the bank’s internal liquidity
      calculation and (2) total dollar amount of deposits not considered brokered, raised
      through an Internet rate listing service. Also lacking were the bank’s month-end
      Statements of Condition and Statements of Income and Expense.

      In the April 2008 DBF examination, the bank’s liquidity position was fair but did not
      fully support the bank’s risk profile. The bank’s liquidity ratio was 11.58 percent, higher
      than the regulatory condition that it be at least 10 percent during the first 3 years of
      operation. The ROE stated that liquidity was above the required 10 percent but that
      liquidity was an ongoing concern, considering the overall risk profile, resulting from
      deteriorating asset quality and diminishing secondary sources of funding.




                                                  22
    On July 17, 2008, DBF issued a C&D to Alpha. Included in the order were instructions
    that within 60 days from the effective date of the order, the bank shall review and revise
    its written liquidity policy. The revision shall include, at a minimum:

       •   an assessment of the bank’s liquidity needs and plans for ensuring that such needs
           are met on an ongoing basis;
       •   goals and strategies for managing and/or improving the bank’s interest rate risk
           exposure and for returning the bank to a position which is within policy
           guidelines;
       •   coordination of the bank’s loan, investment, operating, and budget policies with
           the written liquidity policy; and
       •   a contingency funding plan.

    According to DSC and DBF officials, liquidity became an issue as the overall
    deterioration in the bank’s condition impacted access to alternative sources of funding,
    including brokered deposits. In fact, during the last 4 months that the bank was
    operational, DSC was monitoring Alpha’s liquidity position on a daily basis. DBF
    officials stated that when Alpha was immersed in loan problems, the Federal Reserve
    Bank reduced Alpha’s line of credit. Due to the drop in Alpha’s PCA category to
    undercapitalized in July 2008, Alpha was unable to obtain a brokered deposit waiver, and
    the bank suffered about $300,000 in prepayment penalties when it was forced to liquidate
    bank-owned CDs in order to fund the withdrawal of consumer deposits. The bank had
    many CDs with other banks but did not want to renew or renegotiate them under less-
    than-favorable conditions. As capital levels dropped, liquidity became a major problem,
    contributing to the bank’s failure.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory supervisory actions that are to be triggered by an institution’s capital levels.
    Part 325 of the FDIC’s Rules and Regulations implements PCA requirements by
    establishing a framework for taking prompt corrective action against insured nonmember
    banks that are not adequately capitalized.

    The FDIC and DBF evaluated Alpha’s capital position; assigned capital component
    ratings; included capital-related provisions in a formal action, including a PCA Directive,
    in accordance with regulatory guidelines; and provided PCA notification letters. The
    DBF’s April 2008 examination concluded that Alpha’s capital levels had declined due to
    extensive earnings losses resulting from asset quality deterioration. Alpha’s rapid asset
    growth since its inception in May 2006 was supported by an initial stock issuance that
    raised $34 million in capital. However, this asset growth had eroded the Tier 1 Leverage
    Capital ratio to 6.94 percent—below the 8-percent threshold required by FDIC and DBF
    conditions.



                                                23
    In its Call Report dated December 31, 2007, Alpha reported that it held brokered deposits
    totaling $45.9 million (14 percent of total deposits). On May 15, 2008, Alpha submitted
    an application for a brokered deposit waiver. However, the FDIC determined, through
    discussions with Alpha’s Chief Financial Officer, that the bank’s capital position would
    likely fall below adequately capitalized. Thus, Alpha withdrew its application for a
    brokered deposit waiver on July 2, 2008.

    On July 17, 2008, the DBF issued a C&D, acknowledged by the FDIC and effective
    July 27, 2008, that included provisions related to capital and required Alpha to:

       •   Attain, within 90 days, a Tier 1 Capital ratio of no less than 8 percent. The level
           of capital was to be maintained in addition to a fully funded ALLL determined to
           be satisfactory by the DBF and FDIC at subsequent examinations or visitations.

       •   Develop, within 30 days, a written capital plan acceptable to the DBF and FDIC
           to enable the bank to meet the minimum capital requirements set forth in the
           C&D.

    In response, Alpha submitted a plan on August 22, 2008 to meet the minimum capital
    requirements set forth in the C&D. The plan included steps for reducing the level of non-
    performing assets, reducing total assets, reducing the level of concentration in CRE loans,
    improving operations to make the institution profitable, maintaining an aggressive ALLL,
    and raising additional capital.

    On October 10, 2008, the FDIC notified Alpha that based on financial information
    provided by the institution, Alpha was considered to be critically undercapitalized for
    PCA purposes. The FDIC required Alpha to file a written capital restoration plan within
    45 days. However, Alpha failed on October 24, 2008, shortly after this notification.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health. In addition, the use of PCA directives depends on the accuracy of
    capital ratios in a financial institution’s Call Reports. Alpha’s capital remained in the
    well capitalized to adequately capitalized range long after its operations had begun to
    deteriorate because of problems related to management, asset quality, risk management
    controls, and net losses. Further, by the time Alpha’s capital levels fell below the
    required thresholds necessary to implement PCA, the bank’s condition had deteriorated to
    the point at which the institution could not raise additional needed capital, estimated to be
    at least $10 million, through its BOD or find other investors to assist in recapitalizing the
    bank.


CORPORATION COMMENTS AND OIG EVALUATION

    On March 27, 2009, the Director, DSC, provided a written response to the draft of this
    report. DSC’s response is presented in its entirety in Appendix 3. In its response, DSC
    agreed with the OIG’s assessment that Alpha failed primarily due to bank management’s



                                                 24
aggressive pursuit of asset growth concentrated in high-risk ADC loans with inadequate
loan underwriting and a lack of other loan portfolio and risk management controls.

DSC agreed that at the time of the 2007 examination, Alpha exhibited a high-risk profile,
given its level of ADC concentration. DSC indicated that examiners stated that
management monitored the concentration through various reports and described
management’s monitoring as adequate. Further, DSC noted that examiners appropriately
expanded their loan review coverage to include 43 percent of the loan portfolio. At the
time of the April 2007 examination, Alpha had been in operation for 11 months. Its loan
portfolio showed no delinquencies and no charge-offs, and examiners identified no
adversely classified or criticized assets. Examiners made recommendations for bank
management (1) to ensure that the amount of debt extended to given developers or
guarantors, on a global basis, did not exceed their repayment capacity and (2) to
determine that appraisal adjustments were fully documented in the appraisal report to
ensure adequate collateral protection. DSC indicated that these recommendations were
not characterized as criticisms of a deficient program. Finally, DSC stated that examiners
required Alpha management to submit a revised business plan in light of its growth,
which exceeded original projections, and advised management that additional capital
would be necessary to support the growth. DSC concluded that the level of supervisory
concern expressed in the 2007 examination was appropriate.

The OIG recognizes that examiner recommendations (in 2007) to address repayment
capacity and collateral protection and require an updated business plan and capital were
positive. However, examiner actions as part of the 2007 examination did not effectively
address Alpha’s business strategy of aggressive growth of the institution or risk in its loan
operations. Alpha was a de novo institution subject to increased regulatory supervision
particularly during its first 3 years of operation. Virtually from its inception, the
institution did not fully adhere to its approved business plan or loan policy, pursuing high
ADC loan growth without adequate diversification or sound controls and risk
management practices. For example, Alpha’s (1) compensation policy was production-
based and therefore encouraged excessive loan origination without quality controls,
(2) use of interest reserves masked asset quality problems, and (3) underwriting did not
capture the full financial condition of borrowers and, at times, exceeded loan-to-value
limits. The risks associated with this business strategy and Alpha’s loan operations were
present even though the reported financial condition did not deteriorate right away.
Additional supervisory focus on managing risk and strengthening controls was warranted
as the loan portfolio had not matured in the 11 months that Alpha was in operation.

By the time of the 2007 examination, Alpha’s ADC commitments, as a percent of Tier 1
Capital, exceeded 500 percent. Alpha’s loan portfolio exceeded the supervisory criteria
established in the December 2006 interagency guidance for CRE concentration risk. The
2006 interagency guidance emphasizes (1) the importance of a successful track record in
managing the risks of CRE concentrations and (2) that recent, significant growth in CRE
lending will receive closer supervisory review. Also, Alpha exhibited many of the risk
characteristics identified by DSC’s 2004 De Novo Banks Study with regard to rapid asset




                                             25
growth. These guidelines further support that Alpha’s business strategy and loan
operations should have received greater supervisory attention in 2007.

As part of the 2007 financial statement audit, Alpha’s independent public accountant
expressed concern in January 2008 that interest reserves were masking loan problems on
ADC loans where the project development was not progressing in accordance with
original loan terms. The accountant recommended a significant increase in the ALLL for
2007. Alpha’s BOD also identified problems with loan operations that resulted in the
BOD’s termination of the CEO in February 2008. Examiners rated asset quality a 1 in
April 2007 and a 4 a year later—a triple downgrade, after the actions by Alpha’s BOD to
address asset quality problems. This decline in the rating was based, in part, on (1) a loan
review structure that was inadequate, (2) significant increases in past-due and nonaccrual
loans, including risky single-pay loans, and (3) depletion of interest reserves on ADC
loans. However, subsequent supervisory actions, including a C&D issued by the DBF
based on the 2008 examination, and corrective measures by the institution were too late
to prevent the failure of Alpha.

Alpha failed 29 months after it opened and resulted in a loss to the DIF that approached
50 percent of the bank’s total assets. This timeframe is the shortest amount of time
between the granting of approval for deposit insurance and failure of an institution and
the highest loss rate of any of the failures requiring a material loss review over the last
3 years. In our view, the extraordinary risk associated with Alpha’s business strategy and
loan operations warranted additional examiner concern and action in 2007 even though
the examiners did not identify adversely classified or criticized assets.

DSC’s response also noted that, in light of the economic deterioration and its impact on
Alpha and other similarly situated institutions, the division has undertaken a number of
initiatives, listed in its response, related to the supervision of such institutions.




                                            26
                                                                                      APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency, reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from November 2008 to February 2009 in accordance with
      generally accepted government auditing standards. However, due to the limited scope
      and objectives established for material loss reviews, which are generally applied to just
      one financial institution, it was not feasible to address certain aspects of the standards as
      described in the sections that follow.


Scope and Methodology

      The scope of this audit included an analysis of Alpha’s operations, which began on
      May 8, 2006, until the bank’s failure on October 24, 2008. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the same period.

      To achieve the audit objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and DBF
                 examiners from 2006 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at the DSC’s ARO and Atlanta
                       Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor, Mauldin & Jenkins, at the offices of
                       Carlock, Copeland & Stair, LLP in Atlanta, Georgia.




                                                      27
                                                                               APPENDIX 1


           •   Bank records maintained by DRR in Dallas, Texas.

           •   Pertinent DSC policies and procedures.

    •    Interviewed the following FDIC officials:

           •   DSC management in Washington, D.C., and DSC’s ARO in Atlanta,
               Georgia.

           •   DRR officials at the Dallas Regional Office.

           •   FDIC examiners from the DSC ARO and DSC Atlanta Field Office who
               participated in examinations or reviews of examinations of Alpha.

     •   Met with officials from DBF in Atlanta, Georgia, to discuss their historical
         perspective of the institution, its examinations, state banking laws, and other
         activities regarding the state’s supervision of the bank.

     •   Researched various banking laws and regulations, including State of Georgia
         banking laws.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance with Laws and Regulations

Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
control or management control structure. We performed a limited review of Alpha’s
management controls pertaining to its operations as discussed in the finding section of
this report. For purposes of the audit, we did not rely on computer-processed data to
support our significant findings or conclusions. Our review centered on interviews,
ROEs, and correspondence and other evidence to support our audit.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. The results of our tests were
discussed, where appropriate, in the report. Additionally, we assessed the risk of fraud
and abuse related to our objectives in the course of evaluating audit evidence.




                                              28
                                                                                                   APPENDIX 2
                                   GLOSSARY OF TERMS


    Term                                                 Definition
Adversely       Assets subject to criticism and/or comment in an examination report. Adversely
Classified      classified assets are allocated on the basis of risk (lowest to highest) into three
Assets          categories: Substandard, Doubtful, and Loss.

Allowance for   Federally insured depository institutions must maintain an ALLL that is adequate to
Loan and        absorb the estimated loan losses associated with the loan and lease portfolio (including
Lease Losses    all binding commitments to lend). To the extent not provided for in a separate liability
(ALLL)          account, the ALLL should also be sufficient to absorb estimated loan losses associated
                with off-balance sheet loan instruments such as standby letters of credit.

Cease and       A formal enforcement action issued by financial institution regulators to a bank or
Desist Order    affiliated party to stop an unsafe or unsound practice or violation. A C&D may be
(C&D)           terminated when the bank’s condition has significantly improved and the action is no
                longer needed or the bank has materially complied with its terms.


Concentration   A concentration is a significantly large volume of economically related assets that an
                institution has advanced or committed to a certain industry, person, entity, or affiliated
                group. These assets may, in the aggregate, present a substantial risk to the safety and
                soundness of the institution.

Prompt          The purpose of PCA is to resolve the problems of insured depository institutions at the
Corrective      least possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations, 12
Action (PCA)    Code of Federal Regulations, section 325.101, et. seq. implements section 38, Prompt
                Corrective Action, of the FDI Act, 12 United States Code section 1831(o), by
                establishing a framework for taking prompt supervisory actions against insured
                nonmember banks that are less than adequately capitalized. The following terms are
                used to describe capital adequacy: Well Capitalized, Adequately Capitalized,
                Undercapitalized, Significantly Undercapitalized, and Critically Undercapitalized.

Trust           A trust preferred security, generally issued by bank holding companies, is a security
Preferred       possessing characteristics of both equity and debt issues. Trust preferred securities have
Security        an advantage over other types of hybrid securities, which is that if they are issued by a
                bank holding company, they will be treated as capital (equity/own funds) rather than as
                debt for regulatory purposes.

Uniform Bank    The UBPR is an analysis of financial institution financial data and ratios that includes
Performance     extensive comparisons to peer group performance. The report is produced by the Federal
Report          Financial Institutions Examination Council for the use of banking supervisors, bankers,
(UBPR)          and the general public and is produced quarterly from Call Report data submitted by
                banks.




                                                   29
                       APPENDIX 3

CORPORATION COMMENTS
                       APPENDIX 3
CORPORATION COMMENTS




         31
                       APPENDIX 3
CORPORATION COMMENTS




         32
                                                                         APPENDIX 4
                    ACRONYMS IN THE REPORT


Acronym                          Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
ARO       Atlanta Regional Office
BOD       Board of Directors
BSA       Bank Secrecy Act
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CD        Certificate of Deposit
CDARS     Certificate of Deposit Account Registry Service
CEO       Chief Executive Officer
CRE       Commercial Real Estate
DBF       Department of Banking and Finance
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                    33
